                    July 17, 2000

                    KENNETH C. WEAVER
                    CHIEF POSTAL INSPECTOR

                    PATRICK R. DONAHOE
                    SENIOR VICE PRESIDENT, HUMAN RESOURCES

                    SUBJECT: Review of Postal Inspection Service Forensic
                             Scientist Salaries
                             (Report Number OV-MA-00-002)

                    This management advisory report presents the results of
                    our review of the salaries paid to forensic scientists at the
                    Postal Inspection Service (Project Number
                    99CF012OV000). We initiated this review in response to a
                    complaint received from Inspection Service Forensic and
                    Technical Services Division (Lab) managers. The
                    managers alleged that forensic scientists lacked parity in
                    salaries when compared to their federal counterparts. The
                    managers further alleged that the lack of parity in salaries
                    has caused personnel recruiting and retention problems.

Results in Brief	   Our review disclosed that while junior forensic scientists at
                    the Forensic and Technical Services Division had pay parity
                    with their federal counterparts, senior forensic scientists
                    lacked parity in salaries when compared to their federal
                    counterparts. The lack of parity in salaries has impacted the
                    Inspection Service’s ability to recruit and retain qualified
                    senior forensic scientists. A memorandum provided by
                    Inspection Service officials identified that since 1995, 9 out
                    of 50 forensic scientists (18 percent) left the Inspection
                    Service Lab for better salaries.

                    If corrective actions are not taken, the Inspection Service’s
                    ability to attract and retain senior forensic scientists may
                    worsen. The Federal Bureau of Investigation and the
                    Department of Treasury have received congressional
                    approval to establish special pay and benefit programs to
Review of Postal Inspection Service                                                 OV-MA-00-002
 Forensic Scientist Salaries


                               attract scientists and technicians for positions that have
                               historically had recruiting and retention problems. Both
                               agencies have included their respective forensic scientist
                               positions in these special programs.

                               We suggested that the chief postal inspector work with the
                               senior vice president, Human Resources, to develop a
                               compensation program for Inspection Service forensic
                               scientists that will establish salary parity with other federal
                               forensic laboratories. Management agreed with our
                               suggestion and has initiated corrective action to address the
                               issues identified in this report. In addition, management
                               suggested that several statements in the report be modified
                               for clarification. We address these suggested modifications
                               in our evaluation of management’s comments. In some
                               instances, we modified the report based on management’s
                               suggestions. Management's comments, in their entirety,
                               are included in the Appendix of this report.

Background 	                   The Federal Law Enforcement Pay Reform Act of 1990
                               significantly impacted the salaries of federal law
                               enforcement personnel. With the exception of the Postal
                               Inspection Service, which was not included in the
                               legislation, other federal law enforcement agencies raised
                               the overall salaries of their law enforcement personnel to
                               include their forensic scientists.

                               In June 1995, the chief postal inspector created a Pay Task
                               Force for the purpose of examining the pay disparity
                               between postal inspectors and forensic scientists with their
                               respective federal counterparts. This task force had been
                               meeting with Postal Service Human Resource officials to
                               review their initial findings, when on September 30, 1996,
                               Public Law 103-329, the Postal Inspector General Law, was
                               passed. This legislation required that compensation and
                               benefits for all postal inspectors be maintained on a
                               standard of comparability with other federal law
                               enforcement personnel. This changed the mission of the
                               Pay Task Force to working directly with Human Resource
                               officials to develop and implement a pay system that would
                               meet the requirements of the legislation. Human Resource
                               officials indicated that since the legislation only included
                               postal inspectors, forensic scientists would not be included
                               in the new pay system. Human Resource officials stated
                               that forensic scientist pay issues would be reviewed as a




                                                 2
Review of Postal Inspection Service                                                                OV-MA-00-002
 Forensic Scientist Salaries


                                 separate issue. To date, a separate salary package for
                                 forensic scientists has not been developed.

                                 On February 6, 1998, five forensic managers assigned to
                                 the Inspection Service Lab wrote a letter to the inspector
                                 general, Postal Service, expressing their concern about not
                                 being included in the Pay Task Force salary deliberations
                                 implementing the Postal Inspector General Law. The
                                 managers alleged that by not being included in the
                                 implementation of this law, salary adjustments were not
                                 appropriately addressed. Consequently, Inspection Service
                                 forensic scientists have been unable to maintain parity in
                                 salaries with their federal counterparts. The managers
                                 further contended that the lack of parity in salaries has
                                 affected their ability to recruit and retain qualified forensic
                                 scientists.

Objective, Scope, and 	 Our objective was to determine if a disparity existed
Methodology	            between salaries paid to Postal Inspection Service forensic
                        scientists and their federal counterparts. To accomplish this
                        objective, we reviewed the results of various studies and
                        surveys1 that evaluated compensation issues including law
                        enforcement benefits for forensic scientists. We did not
                        evaluate the duties performed by Lab personnel. In
                        addition, we interviewed Inspection Service management
                        and Postal Service Human Resources officials to determine
                        what actions, if any, had been taken regarding the
                        compensation package for forensic scientists. We also
                        interviewed administrators from the Immigration and
                        Naturalization Service and Department of the Treasury2 to
                        benchmark pay and benefits provided to their forensic
                        scientists. We reviewed operational plans implementing the
                        Federal Bureau of Investigation and Department of the
                        Treasury special pay and benefits programs, known as
                        Demonstration Projects, authorized by Congress.

                                 We conducted our review from July 1999 through July 2000
                                 in accordance with the President’s Council on Integrity and

1
  Forensic and Technical Services Division, “Pay Comparability for Scientific and Technical Support Personnel,”
September 4, 1991; Forensic and Technical Services Division, “Pay Task Force Final Draft,” December 15, 1995; and
Hay Group, “Comparison of Pay for Forensic Managers and Analysts,” June 29, 1998. The Hay Group study, which
was a Postal Service Human Resource directed study to determine pay parity with the private sector, concluded that
for most locations reviewed, Forensic and Technical Services Division managers lacked pay parity with their
counterparts in the private and city, state, and federal government sectors.
2
  Department of the Treasury includes the Bureau of Alcohol, Tobacco and Firearms; the Customs Service; and the
United States Secret Service.




                                                        3
Review of Postal Inspection Service                                                                   OV-MA-00-002
 Forensic Scientist Salaries



                                  Efficiency, Quality Standards for Inspections. We discussed
                                  our conclusions with management officials and included
                                  their comments where appropriate.

Observations                      While junior forensic scientists at the Forensic and
                                  Technical Services Division had pay parity with their federal
                                  counterparts, senior forensic scientists lacked parity in
                                  salaries when compared to their federal counterparts.3 The
                                  lack of parity in salaries has caused a problem in the
                                  recruitment and retention of qualified senior forensic
                                  scientists. If corrective actions are not taken, the Inspection
                                  Service’s ability to attract and retain senior forensic
                                  scientists may worsen. The Federal Bureau of Investigation
                                  and the Department of Treasury have received
                                  congressional approval to establish special programs to
                                  attract scientists and technicians for positions that have
                                  historically had recruiting and retention problems. Both
                                  agencies have included forensic scientist positions in their
                                  Demonstration Projects.

Pay and Benefit                   Salaries for senior forensic scientists at the Inspection
Inequities                        Service have steadily fallen behind the salaries of forensic
                                  scientists at other federal agencies. According to Inspection
                                  Service officials, salaries for senior forensic scientists have
                                  fallen approximately 15 to 40 percent below the salaries of
                                  forensic scientists at other agencies since the Postal
                                  Service implemented the Postal Inspector General Law
                                  without addressing salaries of forensic scientists. The
                                  percentage difference in salaries depends upon the location
                                  of the laboratory.

                                  Disparities in the Executive and Administrative and General
                                  Schedule professional tracks suggest it may be
                                  advantageous for forensic scientists to begin their career
                                  with the Inspection Service Lab and transfer to another
                                  federal laboratory once they reach the senior forensic
                                  scientist level. Inspection Service forensic scientists are
                                  paid under the Executive Administrative Salary Schedule.4
                                  Forensic scientists from other federal agencies are paid

3
  Junior forensic scientists are scientists at the Executive and Administrative Salary Schedule 17 –19 and General 

Schedule 7 – 11 levels. Senior forensic scientists are scientists at the Executive and Administrative Salary Schedule 

21 – 25 and General Schedule 12 – 15 levels. 

4
  The Postal Service utilizes the Executive and Administrative Salary Schedule to pay executives, professionals, 

supervisors, postmasters and technical and administrative employees. This schedule is unique to the Postal Service. 





                                                          4
Review of Postal Inspection Service                                                                 OV-MA-00-002
 Forensic Scientist Salaries


                                 under the General Schedule pay scale. Salaries paid at
                                 Executive and Administrative entry levels range from
                                 $39,942 to $43,673, while salaries paid at General
                                 Schedule entry levels range from $28,265 to $41,834.5
                                 Conversely, salaries paid at Executive and Administrative
                                 senior levels range from $48,279 to $59,422, while salaries
                                 paid at General Schedule senior levels range from $50,139
                                 to $82,876. As a result, the Postal Service may spend
                                 valuable resources training forensic scientists only to lose
                                 them to other federal laboratories once the forensic
                                 scientists reach the senior levels.

Retention Difficulties	          Inspection Service Lab officials have encountered
                                 increasing difficulty in retaining qualified forensic scientists
                                 due to the disparity in compensation with their federal
                                 counterparts. A memorandum provided by Inspection
                                 Service officials identified that since 1995, 9 out of 50 senior
                                 forensic scientists (18 percent) left the Inspection Service
                                 Lab for better salaries. The impact of the loss of these
                                 senior forensic scientists is further increased due to the
                                 specialized nature of their positions. Lab management also
                                 did not receive any applications from employees of other
                                 federal agencies when they recently published vacancy
                                 announcements for forensic scientist positions. Federal
                                 agencies normally draw applicants from employees of other
                                 federal laboratories when filling vacancies for forensic
                                 scientists.

                                 On September 19, 1997, Inspection Service management
                                 notified Postal Service Human Resource officials of the
                                 Lab’s increasing difficulty in retaining qualified forensic
                                 scientists due to salary disparities with other federal
                                 laboratories. Postal Service Human Resource officials
                                 responded that the Inspection Service did not have a
                                 retention problem since senior forensic scientists who left
                                 the Lab were quickly replaced with newly hired lower level
                                 forensic scientists. Postal Service Human Resource
                                 officials stated that this replacement process resulted in

5
 The Executive and Administrative Salary Schedule figures do not account for Economic Value Added pay, an
annual bonus paid to postal employees who are paid on the Executive and Administrative Salary Schedule.
Economic Value Added pay averaged 6.3 percent over the last three years for forensic scientists. The General
Schedule pay scale figures include a 6.7 percent locality pay. Locality pay is paid according to where an employee
works and not where they live. Additionally, the General Schedule pay scale figures do not account for
Administratively Uncontrollable Overtime pay, basic overtime pay, or hazardous duty pay which are authorized
premium payments. Executive and Administrative Salary Schedule and the General Schedule pay scale figures are
based on the minimum salaries for each grade level in the professional track.




                                                         5
Review of Postal Inspection Service                                                               OV-MA-00-002
 Forensic Scientist Salaries


                                 cost-savings due to the lower salaries of newly hired lower
                                 level forensic scientists. While a cost saving may have
                                 been realized, this practice could result in an erosion of the
                                 Lab’s certified and experienced forensic scientists.

Demonstration Projects Congressionally approved Demonstration Projects at the
                       Federal Bureau of Investigation and the Department of
                       Treasury may adversely impact the Inspection Service’s
                       ability to recruit and retain qualified forensic scientists.
                       Congress authorized Demonstration Projects to assist these
                       federal agencies in recruiting and retaining highly qualified
                       scientists and technicians. Public Law 105-110, Section
                       122, passed on November 26, 1997, authorized the Federal
                       Bureau of Investigation to develop an enhanced
                       compensation project for 3,000 non-special agent
                       employees. Public Law 105-277, Section 112, passed on
                       November 26, 1997, authorized the Department of Treasury
                       to establish a similar project.6

                                 The Demonstration Projects provide the agencies with the
                                 flexibility to develop competitive and enhanced recruiting
                                 and retention pay and benefit packages for technical
                                 positions that have historically demonstrated recruiting and
                                 retention problems. Both agencies have included their
                                 forensic science laboratories in these Demonstration
                                 Projects.

Resolution of Pay &              Inspection Service management has unsuccessfully
Benefits Inequities              attempted to resolve the issue of salary inequities with
                                 Postal Service Human Resource officials since September
                                 1997. Inspection Service management argued that the
                                 Executive and Administrative Salary Schedule was too
                                 restrictive in allowing pay increases and did not keep pace
                                 with the General Schedule pay scale used by the majority of
                                 federal laboratories. Inspection Service management
                                 recommended that Postal Service Human Resource officials
                                 move the forensic scientists to the Inspection Service Law
                                 Enforcement pay scale, which is a General Schedule based
                                 pay scale.

                                 Postal Service Human Resource officials did not move
                                 forensic scientists to the Inspection Service Law
                                 Enforcement pay scale as requested by Inspection Service
6
 The Bureau of Alcohol, Tobacco, and Firearms is the only agency within the Department of Treasury that has
established the Demonstration Project to date.




                                                        6
Review of Postal Inspection Service                                                     OV-MA-00-002
 Forensic Scientist Salaries


                                  management. Human Resource officials stated that moving
                                  the forensic scientists to the Inspection Service Law
                                  Enforcement pay scale would set a precedent for other
                                  Postal Service work groups who were also dissatisfied with
                                  the Executive and Administrative Salary Schedule.

                                  On October 16, 1998, Congressman John McHugh,
                                  chairman of the Subcommittee on Postal Services, wrote a
                                  letter to the postmaster general expressing concern over
                                  salary comparability and retention issues at the Inspection
                                  Service Lab. Postal Service Human Resource officials
                                  conducted a formal review of salary comparability for
                                  forensic scientists and concluded that there was
                                  comparability with the private sector.7 However, in view of
                                  the valuable contribution forensic scientists make to the
                                  overall Postal Service law enforcement effort, the
                                  postmaster general authorized up to a ten percent pay raise
                                  for forensic scientists. However, this pay raise did not
                                  completely close the salary gap between forensic scientists
                                  and their federal government counterparts.

Summary	                          While junior forensic scientists at the Forensic and
                                  Technical Services Division had pay parity with their federal
                                  counterparts, senior forensic scientists lacked parity in
                                  salaries when compared to their federal counterparts. The
                                  lack of parity in salaries has caused a problem in the
                                  recruitment and retention of qualified senior forensic
                                  scientists.

                                  The salary disparity is likely to worsen due to other federal
                                  laboratories developing even more attractive pay and
                                  benefits packages. These pay and benefits packages may
                                  adversely impact the Postal Service’s ability to recruit and
                                  retain qualified senior forensic scientists. Additionally, other
                                  federal forensic laboratories offer pay premiums such as
                                  administratively uncontrollable overtime, basic overtime,
                                  and hazardous duty pay, which are attractive recruiting and
                                  retention benefits. The Postal Service does not pay these
                                  premiums. Our analysis also identified that senior forensic
                                  scientists paid under the Executive and Administrative
                                  Salary Schedule are at a disadvantage when compared with
                                  senior forensic scientists paid under the General Schedule
                                  pay scale. While the Executive and Administrative Salary

7
    Hay Group, “Comparison of Pay for Forensic Managers and Analysts,” June 29, 1998.




                                                         7
Review of Postal Inspection Service                                                  OV-MA-00-002
 Forensic Scientist Salaries


                               Schedule may be more attractive at the lower forensic
                               scientist level, it loses its attractiveness at the senior
                               forensic scientist level.

Suggestion                     We offer the following suggestion:

                               We suggest the chief postal inspector work with the senior
                               vice president, Human Resources, to develop a
                               compensation program for Inspection Service forensic
                               scientists that will establish salary parity with other federal
                               forensic laboratories.

Management's                   The chief postal inspector and vice president, Employee
Comments                       Resource Management, agreed with our suggestion and
                               identified that Postal Service Human Resources and
                               Inspection Service officials are currently working together to
                               develop, review, and analyze a salary structure to address
                               salary parity issues for the forensic staff. Management
                               further identified that the Inspection Service will develop and
                               submit a revised salary proposal to Postal Service Human
                               Resources by July 14, 2000. The Inspection Service will
                               also present its business case for a revised salary structure
                               for the forensic staff to the Non-executive Compensation
                               Committee for decision by the end of July 2000.

                               Management identified that Postal Service Human
                               Resources and the Inspection Service have been working
                               the issue of pay parity for the forensic staff for some time.
                               In addition, prior to the issuance of the draft report,
                               management had taken steps to work on initiatives that
                               would enrich the benefits for all Executive and
                               Administrative Salary Schedule employees, including the
                               Inspection Service forensic staff.

Evaluation of                  Management’s actions, planned and taken, are responsive
Management's                   to our suggestion and should help ensure the resolution of
Comments                       pay parity issues for senior forensic scientists.




                                                  8
Review of Postal Inspection Service                                                OV-MA-00-002
 Forensic Scientist Salaries



Additional                     The chief postal inspector and vice president, Employee
Management                     Resource Management, provided additional comments on
Comments                       several report statements. These comments are
                               summarized below.

                               •	 Definitions for junior and senior forensic scientists were
                                  not provided in the report. The pay disparity for forensic
                                  scientists currently begins following four to five years of
                                  service.

                               •	 The actual salaries of forensic scientists have not fallen
                                  5 to 40 percent since the Postal Inspector General Law
                                  was passed, as identified in the report. Rather, the
                                  maximum annual salary available to Inspection Service
                                  forensic analysts is currently up to 38 percent below their
                                  federal counterparts.

                               •	 The statement identifying that forensic scientists paid
                                  under the Executive and Administrative Salary Schedule
                                  may be at a disadvantage when compared to forensic
                                  scientists paid under the General Schedule pay scale
                                  was understated in the report. Senior forensic analysts
                                  paid under the Executive and Administrative Salary
                                  Schedule are at a definite disadvantage when compared
                                  to their federal counterparts.

                               •	 The term forensic laboratory technician should be
                                  changed to forensic analyst personnel or forensic
                                  scientists since technicians are a separate classification
                                  from forensic scientists.

Evaluation of                  Our evaluation of management’s comments is summarized 

Management’s                   below. 

Comments 

                               •	 We considered junior forensic scientists to be scientists
                                  at the Executive and Administrative Salary Schedule 17
                                  –19 and General Schedule 7 – 11 levels. We further
                                  considered senior forensic scientists to be scientists at
                                  the Executive and Administrative Salary Schedule 21 –
                                  25 and General Schedule 12 – 15 levels. Based on our
                                  analysis, a pay parity began at the Executive and




                                                 9
Review of Postal Inspection Service                                                  OV-MA-00-002
 Forensic Scientist Salaries



                                      Administrative Salary Schedule 21 – 25 and General
                                      Schedule 12 – 15 levels. We modified the report to
                                      reflect our definitions of junior and senior forensic
                                      scientists.

                               •	 We identified that salaries for senior forensic scientists
                                  have fallen approximately 15 to 40 percent below the
                                  salaries of forensic scientists at other agencies based on
                                  an analysis of salary parity issues prepared by the
                                  deputy chief inspector for administration for the
                                  manager, compensation, Postal Service Human
                                  Resources. This percentage range was based on a
                                  review of salaries of numerous forensic scientist
                                  disciplines including chemists, physical evidence
                                  analysts, latent print examiners, questioned document
                                  examiners, digital evidence analysts, and forensic
                                  photographers. We are not certain which disciplines
                                  management is referring to related to the percentage
                                  given and recognize that the percentage difference in
                                  pay parity may have changed since the audit was
                                  conducted.

                               •	 We agree that senior forensic scientists paid under the
                                  Executive and Administrative Salary Schedule are at a
                                  disadvantage when compared to senior forensic
                                  scientists paid under the General Schedule pay scale.
                                  We modified the report to reflect this disadvantage.

                               •	 We referred to forensic scientists as forensic technicians
                                  based upon discussions of forensic positions with
                                  Inspection Service and Postal Service Human
                                  Resources personnel. However, we recognize that
                                  forensic scientists represent a distinct classification of
                                  forensic personnel and have modified the report to refer
                                  to forensic technicians as forensic scientists.




                                                    10
Review of Postal Inspection Service                                            OV-MA-00-002
 Forensic Scientist Salaries



                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact                , or me at (703) 248-2300.



                               Billy J. Sauls
                               Assistant Inspector General
                                for Oversight and Business Evaluations

                               Attachment

                               cc: 	James K. Belz
                                   John R. Gunnels




                                               11
Review of Postal Inspection Service                        OV-MA-00-002
 Forensic Scientist Salaries


                         APPENDIX. MANAGEMENT’S COMMENTS




                                       12
Review of Postal Inspection Service        OV-MA-00-002
 Forensic Scientist Salaries




                                      13
Review of Postal Inspection Service        OV-MA-00-002
 Forensic Scientist Salaries



 Major Contributors to
 This Report




                                      14
